                             TELAMON CORPORATION
                                  RALEIGH, NC
                                     ***

                                 AUDIT REPORT ON
                                  INDIRECT COSTS



                        Performance Audit of Indirect Costs for
                Fiscal Year October 1, 2000 through September 30, 2001



This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                  __________________________________
                                                      Assistant Inspector General for Audit


                                                        Report Number: 21-03-016-03-365

                                                        Date Issued: Augus t 13, 2003
                                             TABLE OF CONTENTS

                                                                                                                                     Page

ACRONYMS ..............................................................................................................................i

EXECUTIVE SUMMARY....................................................................................................... 1

INTRODUCTION AND BACKGROUND.............................................................................. 2

OBJECTIVES, SCOPE AND METHODOLOGY ................................................................... 3

RESULTS OF AUDIT.............................................................................................................. 5

SCHEDULES

                Schedule A - Schedule of Reported Indirect Costs................................................. 6
                            ACRONYMS




CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DMSF -    The Division of Migrant and Seasonal Farmworkers

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

WIA   -   Workforce Investment Act




                                        i
                           EXECUTIVE SUMMARY



The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted
with Harper, Rains, Stokes & Knight, P.A. to perform a performance audit of the
Workforce Investment Act's National Farmworker Jobs Program (NFJP) to determine
whether the program was operating in accordance with applicable regulations. DOL
provides 53 grants to states and non-profit organizations to operate the program within 47
states and Puerto Rico. We selected a statistical sample of nine grantees for review and
tested the direct and indirect costs claimed for reimbursement by these grantees to
determine if the costs claimed were reasonable, allowable and allocable under the cost
principles set forth in OMB Circular A-122, or OMB Circular A-87, as applicable, and
grant guidelines, and performance reported to determine whether it was accurate and
properly supported. The NFJP was audited for program year 2000 (July 1, 2000 through
June 30, 2001).

We performed an audit of the indirect cost rate proposed and indirect costs claimed by
Telamon Corporation (Telamon). The program was audited for the period October 1,
2000 through September 30, 2001, which is the fiscal year for Telamon, and also the
period that all negotiated indirect cost rates cover. The primary objectives of our audit of
the indirect costs claimed by Telamon were to determine if the costs proposed in the
indirect cost pool were reasonable, allowable and allocable under the cost principles set
forth in OMB Circular A-122, and to determine if the direct cost base used and indirect
cost rate proposed by Telamon were those that most equitably distributed indirect costs
among cost objectives.

Our audit found that the base used by Telamon resulted in an equitable allocation of the
costs included in the indirect cost pool among the different programs administered by
Telamon. Additionally, our examination of the specific costs comprising the pool of
indirect costs to be allocated among Telamon’s programs yielded no instances of costs
being questioned due to a lack of reasonableness, allocability, or allowability. The final
audited indirect cost rate was not in excess of the indirect rate proposed by Telamon in
the negotiated indirect cost agreement. The audit resulted in no findings or questioned
costs.




                                             1
                     INTRODUCTION AND BACKGROUND

The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National
Farmworker Jobs Program (NFJP). The intent of NFJP, under section 167 of the
Workforce Investment Act, is to strengthen the ability of eligible migrant and seasonal
farmworkers and their families to achieve economic self-sufficiency through job training
and other related services that address their employment related needs. Assistance from
the NFJP is accessed through the NFJP grantee partners and local One-Stop Centers.

Telamon, a 501(c)(3) organization, serves migrant and seasonal farmworkers and their
families in nine states under the provision of the WIA grants. Their organization stems
from a coalition of North Carolina churches that, in 1965, established the “Migrant
Project” to address the immediate economic needs of farmworkers in the state. By 1972,
the organization had incorporated as the Migrant and Seasonal Farmworker’s
Association, and ultimately became the Telamon Corporation in 1987. Their efforts have
since extended into a total of nine states in which they offer core, intensive, and training
services to migrant and seasonal farmworkers and their families.

In addition to NFJP, Telamon administers other programs in each of the nine states,
including Head Start and several other housing and rural development programs. The
direct costs of the operation and administration of the programs administered by Telamon
are incurred at the state level. Those administrative costs that are not identifiable with a
specific cost objective or program but are, nevertheless, required for the programs’
operations are incurred at the corporate headquarters of Telamon in Raleigh, NC. These
costs are recovered through the application of a provisional indirect cost rate to a direct
cost base that distributes the indirect cost pool among cost objectives. The
aforementioned rate proposed by Telamon is based on historical data relating to indirect
costs and is negotiated periodically by Telamon with DOL’s Office of Cost
Determination.




                                             2
              OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit of the indirect costs claimed by Telamon were to
determine if the costs proposed in the indirect cost pool were reasonable, allowable and
allocable under the cost princ iples set forth in OMB Circular A-122, and to determine if
the direct cost base used and indirect cost rate proposed by Telamon were those that most
equitably distributed indirect costs among cost objectives.

Our audit was performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Our audit included such tests of the
accounting records and other accounting procedures as we considered necessary in the
circumstances.

Our audit was performed using the criteria we considered relevant. These criteria
included those established by the Federal Government in: OMB Circulars A-110,
Uniform Administrative Requirements for Grants and Agreements with Institutions of
Higher Education, Hospitals and Non-Profit Organizations, and A-122, Cost Principles
for Non-Profit Organizations; the Workforce Investment Act of 1998 (WIA); 20 CFR Part
669 National Farmworker Jobs Program under Title 1 of the WIA; and 29 CFR Parts 95
and 96, Administrative Requirements and Audits of Federally Funded Grants, Contracts,
and Agreements.

Management Controls

To meet the aforementioned objectives, we obtained an understanding of management
controls over indirect costs. Our work on established management controls included
obtaining and reviewing policies and procedures manuals, interviewing key personnel,
and reviewing selected transactions to observe the controls in place. Our testing related
to management controls was focused only on the controls related to our audit objectives
of reviewing the indirect costs and was not intended to form an opinion on the adequacy
of management controls, and we do not render such an opinion. Our testing disclosed no
weaknesses in management controls.

Compliance with Laws & Regulations

In order to determine compliance with the above-mentioned laws and regulations, we
performed detailed tests of transactions within the indirect cost pool. Our detailed tests
of transactions included both analytical review and substantive tests of accounts. Our
testing related to compliance with laws and regulations was focused only on the laws and
regulations relevant to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the compliance with laws
and regulations as a whole, and we do not render such an opinion. Our testing disclosed
no instances of non-compliance.




                                            3
We examined the indirect cost pool consisting of supporting costs and the salaries and
fringes for central office positions. This examination included a review of the statements
of revenue and expenditures, general ledgers, and the supporting documentation. We
used judgmental sampling techniques and analytical procedures to test individual
transactions. Additionally, our consideration of the indirect cost rate proposed by
Telamon included an examination of the rate’s application to the direct base used.

The indirect costs claimed by Telamon are presented on Schedule A.


 Entrance and Exit Conferences


The fieldwork relating to the indirect costs claimed by Telamon resulting from the
administration of NFJP and its other programs was performed at the corporate
headquarters in Raleigh, NC, during the period December 11, 2001, through February 8,
2002. We held an entrance conference on December 10, 2001, during which we met with
officials of Telamon to discuss the purpose, scope and timing of the audit work to be
performed. We held an exit conference with these same officials on February 8, 2002, to
discuss the results of our audit of indirect costs and to obtain their comments. The audit
resulted in no findings or questioned costs.




                                            4
                               RESULTS OF AUDIT

During the course of our audit, we determined that the base used by Telamon resulted in
an equitable allocation of the costs included in the indirect cost pool among the different
programs administered by Telamon. Additionally, our examination of the specific costs
comprising the pool of indirect costs to be allocated among Telamon’s programs yielded
no instances of costs being questioned due to a lack of reasonableness, allocability or
allowability. The final audited indirect cost rate was not in excess of the indirect rate
proposed by Telamon in the negotiated indirect cost agreement.

                               Audited Indirect Cost Rate

For the fiscal year ending September 30, 2001, Telamon submitted a final indirect cost
rate of 10.48 percent as shown below:

                         Indirect Cost Pool                   $2,126,984

        Direct Cost Base (All Programs)                      $20,303,674

                  Final Indirect Cost Rate                       10.48%


The indirect cost rate proposed in the negotiated indirect cost agreement was 11.52
percent. This rate was applied monthly to the direct cost bases used by Telamon for each
program. The direct cost base used consisted of the total direct salaries and fringe
benefits of each of Telamon’s programs in addition to one half of the salaries and fringe
benefits of those participants enrolled in the work-experience program in the case of
NFJP. The resulting amount represented the amount recovered by Telamon as indirect
costs for each program. At the close of the fiscal year and subsequent to all adjustments
being made to the indirect costs in the pool, Telamon reported an adjusted indirect cost
rate for all programs based on this revised amount of indirect cost.




                                              5
                                               SCHEDULE A


        TELAMON CORPORATION

     Schedule of Reported Indirect Costs
For the Fiscal Year Ended September 30, 2001

     Cost Categories           Reported

Salaries                         $1,151,643
Fringe Benefits                     320,990
Funded Leave Charges                 15,402
Contract Wages                       21,190
Travel                               65,592
Space Cost                           46,932
Consumable Supplies                  59,906
Durable Supplies                     16,200
Consultants                          23,341
Audit                                56,460
Copy and Printing                     9,931
Communication                        30,499
Postage                              37,801
Employee Recruitment                 14,792
Board Expense                        37,419
Unemployment Insurance               14,564
Workers Compensation                  6,679
Utilities                            11,813
Maintenance to Building              15,808
Maintenance Contracts                22,895
Rental of Equipment                   5,461
Depreciation Expense                 30,260
Maintenance to Office                 4,442
Insurance and Bonding                69,999
Subscriptions                         4,042
Staff Training                       24,698
Miscellaneous Expense                 1,976
Bank Charges                          6,249

                       Total     $2,126,984




                         6
